Via Electronic Filing

September 8, 2021

Danny Bickell
Deputy Clerk of Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

No. 21-270, BNSF Railway Company v. Robert Dannels

Dear Mr. Bickell:
I write to request a thirty-day unopposed extension of the time to file a response to the
petition for certiorari in this case. The response is currently due on September 24, 2021, and I
respectfully request that the deadline be extended to and including October 24, 2021. The
petitioner consents to this request. There is good cause for this request. My colleagues and I
have multiple upcoming deadlines in the weeks ahead, including a response brief in Abbott v.
E. I. du Pont de Nemours & Co, No. 21-3418 in the Sixth Circuit Court of Appeals due on
September 10; an oral argument in Hood v. American Auto Care, No. 20-1157 in the Tenth
Circuit Court of Appeals on September 20; an amicus brief in New York State Rifle and Pistol
Association v. Bruen, No. 20-843 in the Supreme Court due on September 21; a reply brief in
Schell v. Volkswagen, No. 20-17480 in the Ninth Circuit due on September 22; a reply brief in
Mey v. DirecTV, No. 21-1274 in the Fourth Circuit due on September 23; and a reply brief due
in Cohen v. Apple, No. 20-17307 in the Ninth Circuit Court of Appeals due on September 23.
For these reasons, my colleagues and I will require additional time to prepare an adequate
response to the petition. A thirty-day extension will allow us to balance these other
responsibilities with our obligations in this case.
Thank you for your attention to this matter.
Sincerely,

cc: Counsel of Record

Gupta Wessler PLLC
2001 K Street, NW, Suite 850 North, Washington, DC 20006
P 202 888 1741 F 202 888 7792
guptawessler.com

Deepak Gupta

